HHS/OIG, Audit - "Review of University of California, San Diego Medical
Centers Reported Fiscal Year 2004 Wage Data,"  (A-09-06-00027)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of University of California, San Diego Medical
Centers Reported Fiscal Year 2004 Wage Data," (A-09-06-00027)
September 15, 2006
Complete Text of Report is available in PDF format (1.44 mb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the University of California, San Diego Medical Center (the Medical Center) complied with Medicare requirements for reporting wage data for pension and postretirement benefit costs in its fiscal year (FY) 2004 Medicare cost report. The Medical Center did not fully comply with Medicare requirements for reporting wage data for pension and postretirement benefit costs in its FY 2004 Medicare cost report. Specifically, the Medical Center reported inaccurate data, which affected the numerator of the wage rate calculation and overstated the Medicare Center's wage data by $47,773,319.
We recommended that the Medical Center: (1) submit a revised FY 2004 Medicare cost report to the fiscal intermediary to correct the overstated pension and postretirement benefit wage data totaling $47,773,319 and (2) implement review and reconciliation procedures to ensure that the wage data for pension and postretirement benefit costs reported in future Medicare cost reports are accurate, supportable, and in compliance with Medicare requirements. The Medical Center disagreed with our findings and recommendations.